No. ______
In the

Supreme Court of the United States
________________

KANSAS CITY ROYALS BASEBALL CORP., et al.,
v.

Petitioners,

AARON SENNE, on behalf of himself and all others
similarly situated, et al.,
________________

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
________________
PETITION FOR WRIT OF CERTIORARI
________________
ELISE M. BLOOM
ADAM M. LUPION
MARK D. HARRIS
PROSKAUER ROSE LLP
Eleven Times Square
New York, NY 10036
(212) 969-3000

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MATTHEW D. ROWEN
JOSEPH C. SCHROEDER
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
June 1, 2020

QUESTIONS PRESENTED
This sprawling class proceeding involves multiple
classes covering thousands of minor-league baseball
players who played at different positions for dozens of
affiliates across 30 Major League Clubs who were paid
under different compensation terms. Under the clear
teaching of cases like Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011), the thousands of disparate
individual actions encompassed by these proceedings
cannot be shoehorned into a class action for a “trial by
formula” that would look nothing like a class
member’s individual trial. Nonetheless, the Ninth
Circuit certified these sprawling (b)(3) classes by
reading this Court’s decision in Tyson Foods, Inc. v.
Bouaphakeo, 136 S. Ct. 1036 (2016), to create what
amounts to a wage-and-hour exception to Wal-Mart.
The court then exacerbated that error by reversing the
district court’s refusal to certify a (b)(2) class as not
cohesive—not by disagreeing with the district court’s
judgment, but by expressly discarding the
cohesiveness requirement that every other circuit to
consider the question has derived from Wal-Mart.
The questions presented are:
1. Whether Tyson sanctions the use of statistical
surveys to establish commonality and predominance
for a wage-and-hour class that encompasses different
kinds of employees performing different kinds of work
for different employers at different worksites under
different compensation terms.
2. Whether cohesiveness is required for class
certification under Rule 23(b)(2).

ii
PARTIES TO THE PROCEEDING
Petitioners are the Kansas City Royals Baseball
Corporation, Office of the Commissioner of Baseball,
Angels Baseball LP, AZPB Limited Partnership,
Athletics Investment Group LLC DBA Oakland
Athletics Baseball Company, The Baseball Club of
Seattle, LLLP, Chicago Cubs Baseball Club, LLC, The
Cincinnati Reds LLC, Colorado Rockies Baseball
Club, Ltd., Detroit Tigers, Inc., Houston Astros, LLC,
Los Angeles Dodgers LLC, Miami Marlins, LP.,
Milwaukee Brewers Baseball Club, Limited
Partnership, Minnesota Twins, LLC, New York
Yankees Partnership, Padres L.P., Pittsburgh
Associates, Rangers Baseball LLC, Rogers Blue Jays
Baseball Partnership, San Francisco Giants Baseball
Club LLC, St. Louis Cardinals, LLC, and Sterling
Mets, L.P. Petitioners were defendants in the trial
court and Ninth Circuit.
Respondents are Aaron Senne, Michael Liberto,
Oliver Odle, Brad McAtee, Craig Bennigson, Matt
Lawson, Kyle Woodruff, Ryan Kiel, Kyle Nicholson,
Brad Stone, Matt Daly, Aaron Meade, Justin Murray,
Jake Kahaulelio, Ryan Khoury, Dustin Pease, Jeff
Nadeau, Jon Gaston, Brandon Henderson, Tim
Pahuta, Lee Smith, Joseph Newby, Ryan Hutson,
Matt Frevert, Roberto Ortiz, Witer Jimenez, Kris
Watts, Mitch Hilligoss, Daniel Britt, Yadel Marti,
Helder Velaquez, Jorge Jimenez (State Prisoner: AS
5085), Jorge Minyety, Edwin Maysonet, Jose Diaz,
Nick Giarraputo, Lauren Gagnier, Leonard Davis,
Gaspar Santiago, Grant Duff, Omar Aguilar, Mark
Wagner, David Quinowski, Brandon Pinckney,
Individually and on Behalf of All Those Similarly

iii
Situated, Jake Opitz, and Brett Newsome.
Respondents were Plaintiffs in the trial court and
Ninth Circuit.

iv
CORPORATE DISCLOSURE STATEMENT
The Office of the Commissioner of Baseball (which
does business as “Major League Baseball” or “MLB”)
is an unincorporated association and has as its
members the thirty Major League Baseball Clubs.
MLB has no corporate parent, and no publicly held
corporation owns 10% or more of MLB.
Angels Baseball LP is a California limited
partnership. The general partner of Angels Baseball
LP is Moreno Baseball, LP, which is a California
limited partnership.
There is no publicly held
company that owns 10% or more of Angels Baseball
LP or Moreno Baseball LP.
AZPB Limited Partnership is a Delaware limited
partnership. The general partner of AZPB Limited
Partnership is AZDB I, LLC, which is a Delaware
limited liability company. There is no publicly held
company that owns 10% or more of AZPB Limited
Partnership or AZDB I, LLC.
Athletics Investment Group LLC DBA Oakland
Athletics Baseball Company is a California limited
liability company. Athletics Investment Group LLC is
wholly owned by Athletics Holdings LLC, which is a
Delaware limited liability company. There is no
publicly held corporation that owns 10% or more of
Athletics Holdings LLC.
The Baseball Club of Seattle, LLLP is a
Washington limited liability limited partnership. The
managing general partner of The Baseball Club of
Seattle, LLLP is Mariners Baseball LLC, which is a
Washington limited liability company. The limited
partner of The Baseball Club of Seattle, LLLP is
Mariners Investment LLC, which is a Washington

v
limited liability company. Mariners Baseball LLC and
Mariners Investment LLC are each wholly owned by
First Avenue Entertainment LLLP, which is a
Washington limited liability limited partnership.
Nintendo of America, Inc. owns 10% or more of First
Avenue Entertainment LLLP. Nintendo of America is
wholly owned by Nintendo Company Ltd., which is a
publicly held Japanese corporation.
Chicago Cubs Baseball Club, LLC, is a Delaware
limited liability company. Chicago Cubs Baseball
Club, LLC is wholly owned by Chicago Baseball
Holdings, LLC, which is a Delaware limited liability
company. Chicago Baseball Holdings, LLC is wholly
owned by Chicago Entertainment Ventures, LLC,
which is a Delaware limited liability company. There
is no publicly held corporation that owns 10% or more
of Chicago Entertainment Ventures, LLC.
The Cincinnati Reds LLC is a Delaware limited
liability company. There is no corporate parent or
publicly held corporation that owns 10% more of The
Cincinnati Reds LLC.
Colorado Rockies Baseball Club, Ltd. is a
Colorado limited partnership. The general partner of
Colorado Rockies Baseball Club Ltd. is Colorado
Baseball 1993, Inc., which is a Colorado corporation.
There is no publicly held corporation that owns 10% or
more of Colorado Rockies Baseball Club, Ltd. or
Colorado Baseball 1993, Inc.
Detroit Tigers, Inc. is a Michigan corporation.
There is no corporate parent or publicly held
corporation that owns 10% or more of Detroit Tigers,
Inc.

vi
Houston Astros, LLC is a Texas limited liability
company. Houston Astros, LLC is wholly owned by
HBP Team Holdings, LLC, which is a Delaware
limited liability company. HBP Team Holdings, LLC
is wholly owned by Houston Baseball Partners, LLC,
which is a Delaware limited liability company. There
is no publicly held corporation that owns 10% or more
of Houston Baseball Partners, LLC.
Kansas City Royals Baseball Corporation is a
Missouri corporation. There is no corporate parent or
publicly held corporation that owns 10% or more of
Kansas City Royals Baseball Corporation.
Los Angeles Dodgers LLC is a Delaware limited
liability company. Los Angeles Dodgers LLC is wholly
owned by Los Angeles Dodgers Holding Company
LLC, which is a Delaware limited liability company.
Los Angeles Dodgers Holding Company LLC is wholly
owned by LA Holdco LLC, which is a Delaware limited
liability company.
There is no publicly held
corporation that owns 10% or more of LA Holdco LLC.
Miami Marlins, L.P. has been renamed WSC03,
LP. WSC03, LP is a Delaware limited partnership.
The general partner of WSC03, LP is Double Play
Company, which is a Nova Scotia corporation. There
is no publicly held company that owns 10% or more of
WSC03, LP or Double Play Company.
Milwaukee Brewers Baseball Club, Limited
Partnership is a Wisconsin limited partnership. The
general partner of Milwaukee Brewers Baseball Club,
Limited Partnership is Milwaukee Brewers Holdings
LLC, which is a Wisconsin limited liability company.
There is no publicly traded company that owns 10% or
more of Milwaukee Brewers Baseball Club, Limited

vii
Partnership or Milwaukee Brewers Holdings LLC.
Milwaukee Brewers Baseball Club, Inc. is a Wisconsin
corporation. There is no corporate parent or publiclyheld corporation that owns 10% or more of its stock.
Minnesota Twins, LLC is a Delaware limited
liability company. There is no corporate parent or
publicly held corporation that owns 10% more of
Minnesota Twins, LLC.
New York Yankees Partnership is an Ohio limited
partnership. There is no corporate parent or publicly
held corporation that owns 10% or more of New York
Yankees Partnership.
Padres L.P. is a Delaware limited partnership.
The general partner of Padres L.P. is Padres GP, LLC,
which is a Delaware limited liability company. P adres
GP, LLC is wholly owned by SoCal SportsNet, LLC,
which is a Delaware limited liability company. There
is no publicly held corporation that owns 10% or more
of Padres L.P. or SoCal SportsNet, LLC.
Pittsburgh Associates is a Pennsylvania limited
partnership.
The general partner of Pittsburgh
Associates is Pittsburgh Baseball Holdings, Inc.,
which is a Pennsylvania corporation. There is no
publicly held company that owns 10% or more of
Pittsburgh Associates or Pittsburgh Baseball
Holdings, Inc.
Rangers Baseball LLC is a Delaware limited
liability company. Rangers Baseball, LLC is wholly
owned by Rangers Baseball HoldCo LLC, which is a
Delaware limited liability company. Rangers Baseball
HoldCo LLC is wholly owned by Rangers Baseball
Express LLC, which is a Delaware limited liability

viii
company. There is no publicly held corporation that
owns 10% or more of Rangers Baseball Express, LLC.
Rogers Blue Jays Baseball Partnership is an
Ontario general partnership. The partners of Rogers
Blue Jays Baseball Partnership are Rogers Sports
Holdings, Inc. and Blue Jays Holdco, Inc., each of
which is an Ontario corporation. Rogers Sports
Holdings, Inc. and Blue Jays Holdco, Inc. are each
wholly owned by Rogers Media Inc., which is an
Ontario corporation. Rogers Media Inc. is wholly
owned by Rogers Communications Inc., which is a
publicly held Ontario corporation.
San Francisco Giants Baseball Club LLC is a
Delaware limited liability company. San Francisco
Giants Baseball Club LLC is wholly owned by San
Francisco Baseball Associates LLC, which is a
Delaware limited liability company. There is no
publicly held corporation that owns 10% or more of
San Francisco Baseball Associates LLC.
St. Louis Cardinals, LLC is a Missouri limited
liability company. St. Louis Cardinals, LLC is wholly
owned by SLC Holdings, L.L.C., which is a Missouri
limited liability company. There is no publicly held
corporation that owns 10% or more of SLC Holdings,
L.L.C.
Sterling Mets, L.P. is a Delaware limited
partnership. The general partner of Sterling Mets,
L.P. is Mets Partners, Inc., which is a New York
corporation. There is no publicly held corporation that
owns 10% or more of Sterling Mets, L.P. or Mets
Partners, Inc.

ix
STATEMENT OF RELATED PROCEEDINGS
United States District Court (N.D. Cal):
Senne v. Office of the Commissioner of Baseball,
No. 14-cv-00608-JCS (Mar. 7, 2017)
United States Court of Appeals (9th Cir.):
In re Yadel Marti v. USDC-CASF,
No. 15-72971 (Nov. 16, 2015)
Senne v. Kansas City Royals Baseball Corp.,
No. 17-80043 (Jun. 14, 2017)
Senne v. Kansas City Royals Baseball Corp.,
Nos.
17-16245,
17-16267,
17-16276
(Jan. 3, 2020)
Senne v. Kansas City Royals Baseball Corp.,
Nos.
17-16245,
(Aug. 16, 2019)

17-16267,

17-16276

x
TABLE OF CONTENTS
QUESTIONS PRESENTED........................................ i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ........... iv
STATEMENT OF RELATED PROCEEDINGS ....... ix
TABLE OF AUTHORITIES ..................................... xii
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 4
JURISDICTION ......................................................... 5
STATEMENT OF THE CASE ................................... 5
A. Factual and Procedural Background ........... 5
B. The District Court’s Certification Orders.... 9
C. The Ninth Circuit’s Decision...................... 12
REASONS FOR GRANTING THE PETITION....... 15
I.

The Decision Below Conflicts With Rule
23(b)(3) And FLSA Decisions Of This Court
And The Third Circuit. ...................................... 17

II. The Decision Below Expands Rule 23(b)(2)
And Splits With Five Other Circuits. ............... 28
III. The Questions Presented Are Exceptionally
Important. .......................................................... 33
CONCLUSION ......................................................... 36
APPENDIX
Appendix A
Opinion, United States Court of Appeals for
the Ninth Circuit, Senne v. Kansas City
Royals Baseball Corp., Nos. 17-16245,
17-16267, 17-16276 (Aug. 16, 2019)............ App-1

xi
Appendix B
Order, United States Court of Appeals for the
Ninth Circuit, Senne v. Kansas City Royals
Baseball Corp., Nos. 17-16245, 17-16267,
17-16276 (Jan. 3, 2020) ............................. App-90
Appendix C
Order, United States District Court for the
Northern District of California, Senne
v. Kansas City Royals Baseball Corp.,
No. 14-cv-00608-JCS (Mar. 7, 2017) ......... App-92

xii
TABLE OF AUTHORITIES
Cases
Am. Express Co. v. Italian Color Rest.,
570 U.S. 228 (2013)................................................ 33
Carter v. Butz,
479 F.2d 1084 (3d Cir. 1973) ................................. 32
Ebert v. General Mills,
823 F.3d 472 (8th Cir. 2016)............................ 28, 32
Ferreras v. American Airlines, Inc.,
946 F.3d 178 (3d Cir. 2019) ....................... 26, 27, 28
Gates v. Rohm & Haas Co.,
655 F.3d 255 (3d Cir. 2011) ....................... 28, 29, 32
Kartman v. State Farm Mut. Auto. Ins. Co.,
634 F.3d 883 (7th Cir. 2011).................................. 28
Romberio v. Unumprovident Corp.,
385 F. App’x 423 (6th Cir. 2009) ........................... 29
Shook v. Bd. of Cty. Comm’rs of El Paso,
543 F.3d 597 (10th Cir. 2008)................................ 29
Tyson Foods, Inc. v. Bouaphakeo,
136 S. Ct. 1036 (2016).................................... passim
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011)........................................ passim
Statutes
28 U.S.C. §2072(b) .................................................... 17
29 U.S.C. §201 et seq. ................................................. 8
29 U.S.C. §216 ...................................................... 8. 34
Rule
Fed. R. Civ. P. 23(b) ............................................ 29, 30

xiii
Other Authorities
Daniel B. Abrahams et al., Employers’ Guide
to the Fair Labor Standards Act (2015) .................. 8
Laurent Badoux, ADP, Trends in Wage and
Hour Litigation Over Unpaid Work Time
and the Precautions Employers Should
Take (2012), https://bit.ly/2YMTDpK.................... 34
1 Joseph M. McLaughlin, McLaughlin on
Class Actions (16th ed. 2019) ................................ 30

PETITION FOR WRIT OF CERTIORARI
This sprawling and ambitious effort to change the
compensation system for minor-league baseball
players should never have been certified as a series of
class actions. The putative wage-and-hour classes
here are composed of thousands of minor-league
baseball players who live in more than a dozen
different states, played at different positions for
dozens of affiliates across 30 Major League Clubs, and
were
compensated
under
different
terms.
Complicating matters further, there is no typical
workday for minor-league baseball players, who are
more interested in making the big-league club than
with “punching in” at the ballpark at set times or for
uniform periods. The claims and interests of the
various players are wildly disparate, survey evidence
of average arrival and departure times is misleading
and entirely insufficient to create a common issue, and
the (b)(2) class is far from cohesive. Yet none of these
obstacles proved sufficient to stop the Ninth Circuit,
which departed from the precedents of this Court and
the law of its sister circuits in allowing these class
actions to proceed.
In Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338
(2011), this Court warned against turning individual
employment cases that would turn on individualized
facts into sprawling class proceedings that overcome
differences in individualized circumstances via “trial
by formula.” Four years ago, this Court recognized
that, fully consistent with the teaching of Wal-Mart,
there are narrow circumstances in which
representative evidence may be used to satisfy
commonality and predominance and prove liability in

2
class proceedings.
But the Court allowed such
representative evidence to be used only if the same
representative evidence would be “sufficient to sustain
a jury finding as to hours worked if it were introduced
in each employee’s individual action.” Tyson Foods,
Inc. v. Bouaphakeo, 136 S. Ct. 1036, 1048 (2016).
Applying that rule, this should have been a
straightforward case. The putative classes included
players for different teams at different positions in an
industry where there is no such thing as a typical
workday. Yet the principal evidence the plaintiffs
claimed would demonstrate a common issue
concerning hours worked is a survey of what time a
nonrandom sample of players typically arrived at and
left their ballparks or training facilities. The notion
that this would suffice to prove the number of
compensable hours a player worked—or would even be
admissible—in an individual case is fanciful. It is
certainly not enough to convert highly individualized
issues of when the workdays of class members began
and ended and the compensability of what they did in
between into common issues. The survey did not even
ask players what they were doing while they were at
the ballpark—a considerable problem given the
copious evidence that players often just “hang out” at
the ballpark in ways that are not compensable and
have no obvious parallel at meatpacking facilities or
other more typical workplace. That generalized
survey ignored not only this critical issue, but the fact
that what time is compensable and uncompensated
depends on (among other things) what position a
player played, for what Club, and under what terms.

3
The Ninth Circuit nonetheless deemed this
purportedly “representative” survey sufficient to
demonstrate commonality and predominance by
(mis)reading Tyson as effectively creating a wage-andhour exception to Wal-Mart. Indeed, by allowing a
putative class to establish commonality and
predominance through purportedly “representative”
evidence that would never suffice to establish liability
(or even be admissible) in an individual action, the
Ninth Circuit replaced the “rigorous analysis” that
Wal-Mart requires with exactly the kind of relaxed
rule for the use of representative evidence that
multiple Justices in Tyson cautioned against. The
Ninth Circuit’s error is underscored by the Third
Circuit’s rejection of a comparable effort to use Tyson
to certify a sprawling wage-and-hour class action with
more in common with the putative Wal-Mart class
(and this case) than the more targeted class at issue
in Tyson. The Third Circuit squarely rejected that
effort even in the context of a putative class involving
a single employer at a single workplace. Thus, by
certifying multiple (b)(3) classes here covering dozens
of employers and worksites, the decision below
squarely conflicts with decisions of this Court and the
Third Circuit.
The Ninth Circuit compounded that Rule 23(b)(3)
error by creating a circuit split on an important Rule
23(b)(2) question: whether a class seeking only
injunctive relief must be cohesive to be certified under
Rule 23(b)(2). Every circuit to address that question
has concluded that a (b)(2) class must be cohesive—in
no small measure because this Court indicated as
much in Wal-Mart. As this Court explained, because
a (b)(2) class may be certified only if the complained-

4
of conduct “is such that it can be enjoined or declared
unlawful only as to all of the class members or as to
none of them,” a class for which liability cannot be
established for all members at once is, by definition,
not an appropriate (b)(2) class. 564 U.S. at 360. Yet
while in other circuits (and in the district court here)
the failure to demonstrate cohesiveness prevents a
(b)(2) class from being certified, under the Ninth
Circuit’s rule, such cohesion is unnecessary, and thus
the district court’s refusal to certify a (b)(2) class was
reversed.
The ultimate result of the decision below is to
make it radically easier to certify wage-and-hour
classes—the single most prevalent kind of class
action—in the Ninth Circuit than anywhere else in the
country. That incongruity is exacerbated by the fact
that the federal Fair Labor Standards Act (“FLSA”)
allows for nationwide collective actions. Making
matters worse, the Ninth Circuit embraced a distorted
choice-of-law analysis that facilitates using state
wage-and-hour law to certify classes involving farflung employers. In short, the decision below is
irreconcilable with this Court’s precedent, creates two
circuit splits, and provides a roadmap to virtually
automatic certification of both federal and state-law
wage-and-hour classes in the Ninth Circuit even when
(as here) individualized issues are pervasive and
unavoidable. This Court should grant certiorari.
OPINIONS BELOW
The Ninth Circuit’s opinion is reported at 934
F.3d 918 and reproduced at App.1-89. The district
court’s opinion is available at 2017 WL 897338 and
reproduced at App.92-195.

5
JURISDICTION
The Ninth Circuit issued its opinion on August 16,
2019, and denied rehearing en banc on January 3,
2020. App.90-91. On March 19, 2020, this Court
“extended” “the deadline to file any petition for a writ
of certiorari due on or after” that date “to 150 days.”
This Court has jurisdiction under 28 U.S.C. §1254(1).
STATEMENT OF THE CASE
A. Factual and Procedural Background
1. The minor leagues operate as a training ground
in which players play in leagues at various levels and,
in some cases, advance to the Majors. While minorleague games provide countless fans with
entertainment in a typical year, the primary purpose
of minor-league baseball is to enhance players’ skills
through instruction, training, and development
programs, with the ultimate goal to help players reach
a coveted spot on a Club’s Major League roster. App.2.
The baseball year typically begins in March when
pitchers and catcher report for spring training in
either Arizona or Florida. App.3. During spring
training, each Club’s staff trains and evaluates each
player and decides whether he should be assigned to
the Major League Club to start the regular season, or,
if not, to one of the Club’s minor-league affiliates.
App.4. The duration of each player’s participation in
spring training depends on his Club’s preferences, his
skill level, and his position.
After spring training, some players participate in
extended spring training for additional instruction or
treatment. App.4. Most others begin to play regularseason minor-league games, during what is known as

6
the “championship season,” for one or more of their
Clubs’ minor-league affiliates, which span 44 states.
App.4. At the end of the championship season in
September, most players go home for the offseason.
Some Clubs invite a select group of players to
participate in their respective instructional leagues,
which provide players with individualized instruction,
either to address a specific skill or to recognize
superior performance and potential. App.5. A handful
of minor leaguers are called up the big-league Club,
which in a typical year is allowed to expand its roster
on September 1.
2. Players are paid by their respective MLB Clubs,
not by the minor-league affiliates for which they play.
App.3. There are nearly 200 minor-league affiliates
across the country, spanning 44 states. App.2. The
affiliates belong to a number of different leagues,
which are classified by skill level, ranging from Rookie
Ball to Triple-A.
The Clubs pay players varying salaries and
benefits. App.3. Although each player receives the
same base salary during his first year in the minors,
most players receive signing bonuses, performance
bonuses, or other merit-based awards, which can be
worth several million dollars. App.3. Compensation
varies even more substantially thereafter according to
Club/affiliate, skill, service time, past performance,
potential, and contractual terms.
As for spring training, players do not receive a
base salary, but they do receive housing, food, and a
stipend from their Clubs. Spring training is akin to
an audition, especially for minor-league players. The
minor leaguers who participate in spring training are

7
generally motivated by the prospect of making the bigleague club and signing a Major League contract,
which can be orders of magnitude more valuable than
the typical minor-league deal.
The minor-league work environment is unique.
Perhaps its defining criterion is the fact that, while
players work together as a team during games, they
are constantly trying to distinguish themselves from
their teammates to earn a call up to the big leagues.
To that end, many players often arrive early and/or
stay late to engage in a variety of discretionary
activities, such as exercising, stretching, taking extra
batting practice, or receiving physical treatment.
They do so of their own volition. The type and length
of these activities vary extensively based on each
player’s priorities, discretion, skill, position, affiliate,
and developmental needs. One player’s activities and
hours on a given day may bear little resemblance to
another’s. There is, in short, no typical day for a
minor-league baseball player.
Nor is there a typical worksite. Each player
spends time training and playing baseball in multiple
states during the season. A player may have different
home ballparks during the season and will visit many
away-ballparks as well. And although minor leaguers
are professionals, many view spending off-hours at the
ballpark very differently from how more typical
workers view their worksite.
3. In May 2015, 45 current and former minor
leaguers sued MLB and its 30 Clubs, alleging that
they failed to pay minimum wage and overtime for
time players spent on baseball-related activities.
App.5-6. After the district court conditionally certified

8
a collective action under the FLSA, 1 29 U.S.C. §201 et
seq., court-authorized notice was distributed to
approximately 15,000 minor leaguers; roughly 2,200
opted in. App.6. The opt-ins included players from all
30 MLB Clubs. App.5 n.5.
After the close of discovery, defendants moved to
decertify the conditionally certified FLSA collective
action. Plaintiffs, meanwhile, moved to certify eight
classes under Rule 23(b)(3)—one apiece under the
laws of the eight states they referenced in the
complaint (Arizona, California, Florida, Maryland,
New York, North Carolina, Pennsylvania, and
Oregon)—plus an injunctive relief class under Rule
23(b)(2). 2 App.6. In support of their class-certification
motion, plaintiffs asserted that the number of
The FLSA allows plaintiffs alleging violations of its minimumwage and overtime provisions to recover damages in a collective
action on behalf of other “similarly situated” employees. 29
U.S.C. §216(b). FLSA collective actions largely mirror class
actions brought under Rule 23(b)(3), with a few exceptions,
including that the FLSA allows for conditional certification and
requires participants to opt in, rather than opt out.
1

Such “[h]ybrid suits” combining a FLSA collective action with
a class (or classes) alleging state-law wage-and-hour violations
are increasingly common. Daniel B. Abrahams et al., Employers’
Guide to the Fair Labor Standards Act ¶927 (2015). That is no
accident. Whereas individuals who fit a class definition are
presumptively in the class unless they opt out, individuals who
fit a FLSA collective action are presumptively out of a
conditionally certified collective action unless they opt in. Tyson,
136 S. Ct. at 1043; see 29 U.S.C. §216. Class actions are thus far
more potentially lucrative for plaintiffs’ lawyers (and far more
potentially costly for employers) than FLSA collective actions,
since “few people actually take the effort to opt out.” Abrahams,
supra, at ¶927.
2

9
compensable hours each player worked was a common
issue that could be proven via a “pilot survey” that
asked a sample of players who opted in the time of day
they “most often” arrived at the ballpark during the
championship season, how much time they spent
there “on average” after a game, and the number of
hours they spent at the training facility each week
during spring training. App.117-18.
B. The District
Orders

Court’s

Certification

1. The district court denied certification of the
eight state-law classes and decertified the previouslyconditionally-certified
FLSA
collective
action.
Starting with the (b)(3) classes, the court concluded
that a host of individualized issues—including, inter
alia, the determination of which of the players’
activities constitute compensable “work”; the amount
of time each player spent engaging in those activities;
the nature and amount of each player’s compensation;
the analysis of which state’s law would govern each
player’s claims; and the availability of certain
defenses—predominated
over
common
issues.
App.94-97. The court found that these individualized
issues pervaded all parts of the season, from spring
training in March through instructional leagues in
September. App.96-97.
The court also declined to certify the proposed
(b)(2) class, which “is aimed at alleged wage and hour
violations arising from spring training activities in
Florida and Arizona,” App.191-92, finding no evidence
to support plaintiffs’ claim that injunctive relief was
their primary objective or that their request for
monetary relief was merely incidental. App.192.

10
The court’s reasoning with respect to the FLSA
collective action “largely mirror[ed]” its (b)(3) analysis.
App.193. Given the “wide variations among the
players as to the types of activities in which they
engaged and the circumstances under which they” did
so, “collective adjudication” would be “unmanageable
and potentially unfair” to defendants. App.193.
2. Plaintiffs moved for reconsideration with
respect to three of the eight state-law classes: one
seeking wages for the time players spent in training
activities (spring training, extended spring training,
and instructional league) in Arizona, a similar class
for Florida, and a third seeking wages and overtime on
behalf of players who participated in the California
League, a championship-season league. App.106-07.
Most Clubs named as defendants in the California
League class are located outside California, and each
one has multiple additional affiliates in other states.
App.114.
In addition, roughly three-quarters of
California League players played for affiliates in 38
other states—and one-quarter played in three or more
states—during a season in which they played in the
California League. App.115.
Plaintiffs also proposed “a separate Rule 23(b)(2)
injunctive relief class,” which they defined to include:
“[a]ny person who is a) signed to a Minor League
Uniform Player Contract, b) has never signed a Major
League Player Contract, and c) participates in spring
training, instructional leagues, or extended spring
training in Florida or Arizona.” App.107. In support
of these requests, plaintiffs submitted a new survey,
which they dubbed the “Main Survey.” App.99.

11
The Main Survey asked players which teams they
had played for during the relevant championship
seasons and what time they “most often” arrived at
and departed from ballparks and spring training
facilities. It did not ask players what they did while
there, how much time they spent performing specific
baseball activities, or whether they engaged in nonbaseball activities while there. App.117-18, 143. That
made the survey “representative” of little, if anything,
for there was considerable evidence that players often
“hang out” at the ballpark or training facility,
spending time there of their own volition. See, e.g.,
CA9.SER.336 (player often arrived up to two-and-ahalf hours before games to eat and digest his meal);
407-09 (player arrived early on certain days so that his
roommate could drive him to the ballpark); 471-72
(after games, player needed to decompress, eat, and
shower before departing the facility and was not “in
any rush”); 931-32 (player liked to arrive early to
“relax in the locker room” or “maybe watch some
baseball if it was on TV”). Nor did the survey ask
which affiliate the players played for to identify
whether any were in the California League.
The district court granted reconsideration in part,
certifying one (b)(3) class (the California League class)
and a new FLSA collective action based principally on
the Main Survey. App.195-96. In the court’s view, the
new “survey data,” “in combination with other
evidence,” “may be sufficient to allow a jury to draw
conclusions based on reasonable inference as to when
players were required to be at the ballpark and how
long after games they were required to remain at the
ballpark.” App.176. Although the court recognized
that the Main Survey’s description of ballpark arrival

12
and departure times “may or may not be sufficient to
establish the ultimate issue of how much actual work
was performed by the putative classes,” and that
“some individualized issues will remain” as to which
types of activities should be considered “work,” the
court certified the California League class anyway,
reasoning that defendants could attack the persuasive
value of the Main Survey as a measurement of
compensable work on summary judgment or at trial.
App.155, 174. It also recertified the FLSA collective
action under a similar analysis. App.192-93.
In contrast, the court declined to reconsider its
refusal to certify the spring training classes or the
proposed (b)(2) class. Because many players traveling
to Arizona or Florida for spring training hailed from
states that “have recognized an interest in applying
the law of that state to residents who work outside of
the state,” the court concluded that choice-of-law
questions precluded predominance. App.189. As for
the proposed injunctive-relief class, the court ruled
that it lacked the “cohesiveness” required for
certification under Rule 23(b)(2). App.191-92.
C. The Ninth Circuit’s Decision
Over a dissent from Judge Ikuta, the Ninth
Circuit reversed in part, vacated and remanded in
part, and affirmed in part. The court affirmed
certification of the California League class, held that
the spring training classes should have been certified
as well, and vacated the denial of certification of the
proposed (b)(2) injunctive-relief class.
The court began its analysis by waving away the
choice-of-law concerns that the district court identified
in concluding that plaintiffs failed to prove that

13
common questions would predominate for the two
spring training classes. Even though the proposed
classes consisted of players “who reside in at least 19
states, [and] who are suing employers who are
headquartered in at least 22 states, relating to work
that took place in three different states” with
materially different laws, the majority “appl[ied] a
simple rule of its devise” to evade choice-of-law
concerns: “just apply the law of the jurisdiction where
the work took place.” App.64 (Ikuta, J., dissenting).
The majority thus held that California law applied to
all claims in the California League class even though
several members played for teams headquartered
outside of California, and that Arizona/Florida law
applied to all claims in the Arizona/Florida spring
training classes even though several class members
hailed from states with recognized interests in
applying their law to residents who work out of state.
Having distorted choice-of-law principles to
reduce legal disparities, the majority turned to the
radically different factual circumstances that separate
an outfielder who is a gym rat and loves to hang
around the ballpark and a pitcher on a different
affiliate of a different Club who minimizes his time in
the clubhouse.
Invoking Tyson, the majority
concluded that, despite those wildly variant factual
circumstances, a combination of the Main Survey and
evidence of game schedules sufficed to make the
question of compensable time a common issue that
predominated, and hence that plaintiffs had met their
burden of proving that all three (b)(3) classes should
be certified.

14
The majority acknowledged the considerable
record evidence that many players “did not begin
compensable work upon arriving at the ballpark,” and
“that players stopped engaging in compensable work
long before they left the ballpark.” App.50. But it
nonetheless hypothesized that plaintiffs may be able
to invoke the “continuous workday” rule and
“California’s expansive definition of ‘employ’ and
‘hours worked’” to argue that all time spent at the
ballpark is compensable. App.51-52. The majority
also acknowledged that a jury may well find “the Main
Survey’s
estimated
arrival
and
departure
times … insufficient to clear the preponderance
hurdle.” App.50. But in the majority’s view, “Tyson
counsels that such criticisms do not doom certification
here unless no reasonable jury could conclude that the
combination of the Main Survey and plaintiffs’ other
representative evidence was probative of the amount
of time players actually spent performing
compensable work.” App.50. Applying that rule and
circuit precedent that “accord[s] the district court
noticeably more deference” when “we review a grant of
class certification … than when we review a denial,”
the court deemed plaintiffs’ evidence sufficient to
permit certification. App.54-55.
Finally,
the
majority
held—in
express
disagreement with every other circuit to squarely
confront the issue—that there is no “‘cohesiveness’
requirement for … Rule 23(b)(2) class[es],” and thus
vacated the district court’s denial of (b)(2) certification
on that basis. App.34.
Judge Ikuta dissented. She focused her opinion
on the majority’s distortion of choice-of-law principles

15
to eliminate legal disparities among class members.
Because “[t]he proposed classes here comprise
employees who reside in at least 19 states, who are
suing employers who are headquartered in at least 22
states,” Judge Ikuta concluded that “[d]etermining
whether to certify a class” would “require identifying
the relevant laws of each of the potentially affected
jurisdictions, … determin[ing] whether a true conflict
exists, and then deciding which jurisdiction’s interest
would be most impaired if its law were not applied”—
all of which would defeat predominance. App.64.
REASONS FOR GRANTING THE PETITION
The Ninth Circuit’s decision to certify these
sprawling employment-law class actions not only
departs substantially from this Court’s precedents,
but squarely conflicts with decisions of other circuits
on the basic requirements of Rule 23. Thousands of
minor-league baseball players with different
positions, employers, and workplaces seek here to
prove entitlement to additional compensation
principally through a survey that failed to reasonably
capture the amount of time any individual ballplayer
spent on compensable activities. Given that glaring
deficiency, no individual plaintiff could have relied on
that evidence to establish the length of his workday or
to prove his entitlement to additional compensation in
an individual action.
Yet the Ninth Circuit
nonetheless found no Rule 23 or Rules Enabling Act
problem with allowing these thousands of disparately
situated individuals to band together and proceed as a
class on the basis of such borderline-irrelevant
representative evidence.

16
Even more remarkably, the Ninth Circuit claimed
that this Court’s caselaw compelled this certification
“by formula” approach to Rule 23. According to the
Ninth Circuit, Tyson commands that district courts in
putative wage-and-hour class actions “may only deny
[statistical evidence’s] use to meet the requirements of
Rule 23 certification if ‘no reasonable juror’ could find
it probative of whether an element of liability was
met.” App.55. Under the Ninth Circuit’s view, in
other words, supposedly “representative” evidence
suffices to justify class certification so long as it is
minimally probative, even if it would plainly not
suffice in a class member’s individual action.
As the Third Circuit recently recognized in
rejecting a putative class’s effort to use Tyson and
similar “representative” evidence to certify a far less
ambitious class, that fundamentally misunderstands
Rule 23, the Rules Enabling Act, and this Court’s
precedents enforcing them. It converts Tyson from a
decision allowing the modest use of representational
evidence in narrow circumstances into a full-blown
wage-and-hour exception to Wal-Mart. Indeed, the
Ninth Circuit was explicit that it viewed Tyson as
displacing Wal-Mart’s requirement of “rigorous
analysis” in the wage-and-hour context.
Adding insult to injury, the decision below puts
the Ninth Circuit on the wrong side of a five-to-one
circuit split on whether Rule 23(b)(2) requires a class
to be cohesive. Rule 23(b)(2) provides an attractive
target for plaintiffs, as it dispenses with the
requirements of predominance, superiority, and optout necessary for a (b)(3) class.
Given that
attractiveness—and the potential for misuse—this

17
Court made clear in Wal-Mart that (b)(2) certification
is appropriate only when the complained-of conduct “is
such that it can be enjoined or declared unlawful only
as to all of the class members or as to none of them,”
564 U.S. at 360—in other words, when the class is
cohesive. Consistent with that understanding, every
other circuit to address the issue has held that a (b)(2)
class must be cohesive. The decision below openly
parts company with those five circuits, and in doing so
defies this Court’s clear teachings. Making matters
worse, procedural aspects of the FLSA and the
decision’s unorthodox choice-of-law regime will make
it particularly easy for plaintiffs’ lawyers to litigate
nationwide wage-and-hour classes within the friendly
confines of the Ninth Circuit and its class-action
jurisprudence. This Court should grant certiorari and
bring the Ninth Circuit’s doubly lax class-certification
law back in line with this Court’s precedent.
I.

The Decision Below Conflicts With Rule
23(b)(3) And FLSA Decisions Of This Court
And The Third Circuit.

In Wal-Mart v. Dukes, this Court warned against
allowing putative classes to use statistical and
supposedly representative evidence to convert
individualized employment disputes into common
questions capable of resolution on a classwide basis.
Consistent with the Rules Enabling Act, which forbids
courts from applying the Federal Rules of Civil
Procedure to “abridge, enlarge or modify any
substantive right,” 28 U.S.C. §2072(b), this Court
rejected a Ninth Circuit decision allowing the use of
statistical evidence that would have been insufficient,
if not inadmissible, to establish liability in individual

18
cases to be the basis for classwide proceedings. As the
Court explained, even assuming that evidence could
support an inference of a general pattern of
discrimination, it would not prove that any particular
adverse employment action was the product of
discrimination. The evidence thus provided “no cause
to believe that all [the class members’] claims can
productively be litigated at once.” Wal-Mart, 564 U.S.
at 350.
Four years ago, this Court revisited the use of
representative evidence in the context of a very
different class action. Tyson involved a class of
employees who worked at a single pork-processing
plant and claimed they were under-compensated
because they were not paid for time spent “donning”
and “doffing” required protective clothing. 136 S. Ct.
at 1042. To prevail, they needed to establish that
donning and doffing was a compensable part of the
workday, and “each employee had to show he or she
worked more than 40 hours a week” if donning and
doffing time were included. Id. at 1043. Because the
employer had not kept records of the time spent
donning and doffing, the class introduced an
occupational study estimating the average donning
and doffing time for each type of employee at the plant.
Id.
In upholding the use of that study to establish
both liability and that the class had established
commonality and predominance, this Court declined
the parties’ invitations “to establish general rules
governing the use of statistical evidence, or so-called
representative evidence, in all class-action cases.” Id.
at 1046. Instead, the Court concluded that “[w]hether

19
a representative sample may be used to establish
classwide liability will depend on the purpose for
which the sample is being introduced and on the
underlying cause of action.” Id. at 1049. The Court
similarly declined to establish a rule for all wage-andhour disputes; instead, the Court concluded that in
such cases the analysis turns on whether the evidence
“could have been sufficient to sustain a jury finding as
to hours worked if it were introduced in each
employee’s individual action.” Id. at 1048.
Emphasizing that each plaintiff “worked in the
same facility, did similar work, and was paid under
the same policy,” and that time records were not
available, the Court concluded that the same kind of
representative study likely would have been both
necessary and sufficient even in individual class
members’ donning and doffing cases. Id. at 1043,
1048. The Court therefore concluded that foreclosing
the plaintiffs from relying on the study just because
they proceeded as a class would violate the Rules
Enabling Act.
At the same time, however, the Court made clear
that, just as the Rules Enabling Act cannot tolerate a
rule that makes it harder for a class to rely on
representative evidence in class proceeding than for
an individual to do so in an individual case, the
converse is also true: The Act cannot tolerate a rule
that makes it easier for a class to use representative
evidence than for individual litigants, especially when
statistical evidence is being used to bridge or disguise
differences among class members. As the Court thus
explained, nothing in its decision called into question
the reasoning or holding of Wal-Mart, for the reason

20
the Wal-Mart plaintiffs could not rely on
representative evidence was because “none of them
could have prevailed in an individual suit by relying
on depositions detailing the ways in which other
employees were discriminated against by their
particular store managers.” Id. at 1048.
The separate opinions in Tyson reinforced the
decision’s limited scope.
While Justice Thomas
expressed concern that the majority’s opinion could be
read as “creat[ing] a special, relaxed rule authorizing
plaintiffs to use otherwise inadequate representative
evidence in FLSA-based cases,” id. at 1056 (Thomas,
J., dissenting), the Chief Justice authored a
concurring opinion explaining that he did “not read
the Court’s opinion,” which he joined, to embrace any
such relaxed rule, id. at 1051 (Roberts, C.J.,
concurring).
2. Under a straightforward application of Tyson,
this should have been an easy case. Indeed, this case
is a replay of Wal-Mart, not Tyson, as the plaintiffs
here are using representative evidence to bridge gaps
and generate commonality, rather than simply using
evidence that would be admissible and likely
dispositive in individual cases.
Plaintiffs here do not work scheduled shifts in the
same facility or seek compensation for a single activity
with only minor variations in how many minutes it
took them to perform it. They are minor-league
baseball players who played different positions for
dozens of affiliates across 30 different Clubs and were
paid under varying compensation terms. This is not a
simple matter of estimating how long it took the
average Royals’ catcher to don or doff his protective

21
gear. This is an effort to fundamentally transform
minor-league baseball compensation that cuts across
teams, positions, employers, and worksites. That puts
this case at very nearly the opposite end of the
spectrum from the plant workers in Tyson. The
representational evidence here is a blatant effort to
bridge the gaps that separate the class members and
create a homogeneous class proceeding that would
meld together the very different individual claims of
an outfielder for one Club and a pitcher for another.
The first fatal problem here is that, unlike in
Tyson, plaintiffs do not claim that their employers
failed to compensate them for a single, uniform
activity, like donning protective gear or traveling to a
worksite. Instead, they claim that all manner of
baseball-related activities should be compensable.
But because plaintiffs play different positions for
different employers, what is compensable for one
plaintiff may not be compensable for another. For
instance, the most basic fact about spring training is
that pitchers and catchers must report early. That
reflects that players at those positions have
specialized regimens and that what is mandatory for
a pitcher may be optional for most field players. Thus,
a baseball-related activity that is mandatory (and
thus arguably compensable) for a pitcher on a SingleA affiliate for one Club may be optional (and thus
plainly non-compensable) for a right fielder on the
same team—to say nothing of players on different
affiliates of different Clubs. And an activity that is
compensable for the third-string shortstop on one
Club’s Double-A affiliate may not be compensable for
the shortstops ahead of him on the depth chart, since
some players received signing bonuses, others are

22
working toward year-end performance bonuses, and so
on.
Given those inherent and pervasive disparities
and the sheer breadth of the classes, it is difficult to
conceive of any form of representative evidence that
would be common to the class and still could be
“sufficient to sustain a jury finding as to hours worked
if it were introduced in each employee’s individual
action.” Tyson, 136 S. Ct. at 1048. Simply put, like
questions concerning the motivation for millions of
employment decisions across thousands of stores in
Wal-Mart, the question of how many compensable
hours a minor-league baseball player worked is not
one that can be answered “in one stroke” for all
players. Wal-Mart, 564 U.S. at 350. Indeed, even the
most statistically pristine evidence concerning the
average arrival time, average hours worked, or the
like would not meet the Tyson standard, or likely even
be admissible in an individual player’s case. The
variations among class members would make such
evidence of averages or the hypothetical “typical”
minor-leaguer irrelevant in any one player’s case.
The Main Survey’s specific defects only amplify
the problems with its use to disguise fundamental
differences among class members. The survey asked
players nothing more than what time they “most
often” arrived at and left ballparks and spring training
facilities. App.8-9. It “did not ask players about the
kinds of activities they performed at the facilities, or
how much time they spent performing particular
activities,” or whether they were even working at all
while there. App.8-9.

23
Those are no minor oversights, given the unique
nature of the “workplace” at issue here. While in most
industries it may be a reasonable inference that a
worker reports to his worksite only to work, spending
time at a ballpark or training facility is quite different
from spending time in a factory changing area. Not
surprisingly, extensive evidence confirmed that
baseball players often “hang out” at the ballpark or
training facility, spending time there entirely of their
own volition. See, e.g., CA9.SER.336 (player often
arrived up to two-and-a-half hours before games to eat
and digest his meal); 407-09 (player arrived early on
certain days so that his roommate could drive him to
the ballpark); 471-72 (after games, player needed to
decompress, eat, and shower before departing the
facility and was not “in any rush”); 931-32 (player
liked to arrive early to “relax in the locker room” or
“maybe watch some baseball if it was on TV”). Arrival
and departure times thus are not even a reliable
indicator of when a player was engaged in baseballrelated activities, let alone in activities that might be
compensable. 3
Contrary to the Ninth Circuit’s contentions (at App.51-52),
neither the “continuous workday” doctrine nor “California’s
expansive definition of ‘employ’ and ‘hours worked’” can fix these
problems. As for the former, the panel acknowledged that it is
only a presumption, App.28 n.11; and that presumption is in
considerable tension with record evidence, and could be rebutted
by highly individualized evidence. As for the latter, the panel
cited no authority for the proposition that California would treat
time voluntarily spent watching baseball on television or relaxing
in the locker room as “work.” In all events, neither doctrine
solves the equally fundamental problem that the Main Survey
does not even establish when each player’s workday began or
ended.
3

24
In short, unlike Tyson, this is manifestly not a
case in which a representative sample would be
“sufficient to sustain a jury finding as to hours worked
if it were introduced in each employee’s individual
action.” Tyson, 136 S. Ct. at 1048. To the contrary,
this is the prototypical case in which “there would be
little or no role for representative evidence” if each
plaintiff brought his own suit alleging that he worked
compensable time for which he was not compensated.
Id. The evidence in any individual player’s case would
focus not just on the hours that individual spent at the
ballpark or training facilities, but on the specific
activities he typically performed while there, the
nuances of his contract, his specific service time, and
so on. Because the evidence on which the class relied
here would be patently insufficient to establish
liability in an individual case, it cannot be used to
establish a common, let alone predominant, question
for Rule 23(b)(3) purposes. 4
3. The Ninth Circuit nonetheless concluded that
the “evidence plaintiffs offered was adequate to meet
their burden at this stage.” App.50. While the court
committed several errors in reaching that conclusion,
the critical flaw was in treating Tyson not as a narrow
decision allowing the use of representative evidence
for workers donning and doffing protective gear for a
single employer at a single facility, but instead as
effectively creating a wage-and-hour exception to WalMart. In doing so, the Ninth Circuit embraced exactly
4 That failure dooms plaintiffs’ FLSA collective action as well,
for the FLSA’s “similarly situated” requirement is at least as
stringent as Rule 23(b)(3)’s commonality and predominance
requirements. See supra n.1; cf. Tyson, 136 S. Ct. at 1045.

25
the kind of lax rule for wage-and-hour class actions
that the Chief Justice and the dissenters cautioned
against. See Tyson, 136 S. Ct. at 1051 (Roberts, C.J.,
concurring); id. at 1056-57 (Thomas, J., dissenting).
After all, if a single nonrandom study of the hours
minor leaguers spend at the ballpark can suffice to
prove commonality and predominance at the classcertification stage even though it would be patently
insufficient to establish liability in an individual
player’s case, then Wal-Mart is a dead letter, at least
in wage-and-hour cases.
Indeed, the Ninth Circuit was quite candid in
acknowledging the incompatibility of its holding and
any straightforward reading of Wal-Mart. When
petitioners argued that Wal-Mart demands a “rigorous
analysis” of whether plaintiffs’ proposed evidence in
fact suffices to establish commonality and
predominance, see Wal-Mart, 564 U.S. at 351-52, the
Ninth Circuit responded that “Tyson requires that we
reject this argument” in favor of a rule that a district
court “may only deny [the] use [representative
evidence] to meet the requirements of Rule 23
certification if ‘no reasonable juror’ could find it
probative.” App.55. In other words, at least for wageand-hour cases, the Ninth Circuit has read Tyson as
replacing Wal-Mart’s “rigorous analysis” with a “bare
relevance” test.
That reading not only puts Tyson on a collision
course with Wal-Mart, but creates exactly the Rules
Enabling Act problem that Tyson sought to avoid—
just in reverse. The Rules Enabling Act ensures that
the procedural rules remain just that—procedural
rules. Rule 23 is designed to aggregate individual

26
suits, not to transform them into a battle of the experts
or a battle of the averages. It is not designed to make
evidence that would be marginal or even inadmissible
in individual cases the centerpiece of a class action, let
alone sufficient for a finding of commonality and
predominance. The class action in Tyson honored the
Rules Enabling Act by allowing the use of targeted
representative evidence that would have been
admissible and sufficient in an individual case. The
putative class actions here and in Wal-Mart violate
the Act by allowing survey evidence and averages that
would play no meaningful role in an individual case to
drive the certification decision and transform
individual cases into something altogether different.
By certifying the classes anyway, the Ninth Circuit
read Tyson in a way that puts it in fundamental
conflict with Wal-Mart and other cases establishing
critical constraints on the use of the class-action
device.
4. The Ninth Circuit’s decision also conflicts with
the Third Circuit’s recent decision in Ferreras v.
American Airlines, Inc., 946 F.3d 178 (3d Cir. 2019).
Both courts confronted efforts to use representative
evidence to certify sprawling wage-and-hour classes
vastly exceeding the scope of the class in Tyson. Both
courts were invited to read Tyson as creating a wageand-hour exception to Wal-Mart; the Ninth Circuit
accepted that invitation, while the Third Circuit
declined it.
Ferreras involved a putative class of passengerservice agents, fleet-service employees, and mechanics
who claimed they had been deprived of overtime pay.
Id. at 181-82. The putative class proceeding involving

27
multiple different kinds of employees was more
ambitious than the Tyson class, but more modest than
the effort here, as it focused on a single employer at a
single airport. As in this case, the plaintiffs sought to
rely on a “representative” survey that showed clock-in
and clock-out times. Id. at 182. As in this case, “the
record evidence show[ed] that employees arrived early
and left late for a variety of reasons and engaged in
personal activities” such as “chat[ting] with coworkers” or “watch[ing] TV” “before and after their
shifts.” Id. at 181, 186. But unlike in this case, the
Third Circuit held that survey evidence of arrival and
departure times was not sufficient to allow the
employees to litigate their claims on a classwide basis.
Id. at 186.
As the court explained, “whether hourly-paid
American employees at Newark airport are not being
compensated for all hours worked” was not a question
that could be answered for all class members in one
stroke, because even if the survey evidence were taken
into account, each plaintiff would still need “to offer
individualized proof to show [he or she was] actually
working during the various time periods” when he or
she was clocked in. Id. at 185-86. Because the
plaintiffs failed to establish these questions were
common issues, they likewise failed to establish
predominance. Id. at 186.
The conflict between the decision below and
Ferreras is stark. In both cases, the classes sought to
prove entitlement to backpay via a sample of clock-in
and clock-out times. In both cases, the class members
“were not always working while clocked in.” Id. In
both cases, “there was substantial variability in what

28
they were doing, even if some of it could be called
work.” Id. at 186-87. Yet in one case, the court held
that the plaintiffs could not proceed as a class because
they “would need individualized, not representative,
evidence to prove their case,” whereas in the other, the
court held that proceeding on a classwide basis posed
no Rule 23 or Rules Enabling Act problems. That is
because, unlike the Ninth Circuit, the Third Circuit
correctly recognized that nothing in Tyson obviated
the need to conduct the “rigorous analysis” that WalMart commands. See id. at 187.
Had the Ninth Circuit faithfully followed this
Court’s precedents, it would have reached the same
conclusion as the Third Circuit. Instead, it held
exactly the opposite—and in doing so, defied this
Court’s teachings and opened up a circuit split. This
Court should grant certiorari to resolve that split and
confirm that Tyson did not create either a wage-andhour exception to Wal-Mart or “a special, relaxed rule
authorizing plaintiffs to use otherwise inadequate
representative evidence” in employment-law class
actions. 136 S. Ct. at 1053 (Roberts, C.J., concurring).
II. The Decision Below Expands Rule 23(b)(2)
And Splits With Five Other Circuits.
1. The decision below also opens an acknowledged
circuit split on whether a class must be cohesive to be
certified under Rule 23(b)(2). Every other circuit to
address the issue has held that Rule 23(b)(2) requires
cohesiveness among class members. See, e.g., Ebert v.
General Mills, 823 F.3d 472, 480 (8th Cir. 2016); Gates
v. Rohm & Haas Co., 655 F.3d 255, 264 (3d Cir. 2011);
Kartman v. State Farm Mut. Auto. Ins. Co., 634 F.3d
883, 893 n.8 (7th Cir. 2011); Romberio v.

29
Unumprovident Corp., 385 F. App’x 423, 433 (6th Cir.
2009); Shook v. Bd. of Cty. Comm’rs of El Paso, 543
F.3d 597, 604 (10th Cir. 2008). It is not hard to see
why, as both the plain meaning of the Rule and this
Court’s discussion of it in Wal-Mart compel that
result.
Rule 23(b)(2) authorizes class treatment only
when the defendant “has acted or refused to act on
grounds that apply generally to the class, so that final
injunctive relief or corresponding declaratory relief is
appropriate respecting the class as a whole.” Fed. R.
Civ. P. 23(b)(2). “The key to the (b)(2) class is ‘the
indivisible nature of the injunctive or declaratory
remedy warranted.’” Wal-Mart, 564 U.S. at 360.
Certification thus is appropriate under Rule 23(b)(2)
only when the complained-of conduct “is such that it
can be enjoined or declared unlawful only as to all of
the class members or as to none of them.” Id. After
all, the only way a single indivisible injunction could
remedy each class member’s injury is if each class
member’s claim depends entirely upon the same
common contention(s)—in other words, if the class is
cohesive. Id. at 362-63; see also Gates, 655 F.3d at 264
(noting that Wal-Mart “highlighted the importance of
cohesiveness” for a (b)(2) class).
To be sure, unlike Rule 23(b)(3), Rule 23(b)(2) does
not contain a separate requirement that “questions of
law or fact common to class members predominate
over any questions affecting only individual members”
or “that a class action is superior to other available
methods for fairly and efficiently adjudicating the
controversy.” Fed. R. Civ. P. 23(b)(3). But as this
Court explained in Wal-Mart, those requirements “are

30
missing from (b)(2) not because the Rule considers
them unnecessary,” but because a class that seeks the
kind of truly indivisible relief (b)(2) contemplates will
necessarily satisfy them. 564 U.S. at 362.
That also explains why Rule 23(b)(2) does not
require “mandatory notice” to absent class members
or “the right to opt out.” Id. When a defendant “has
acted or refused to act on grounds that apply generally
to the class,” Fed. R. Civ. P. 23(b)(2), the same
injunction or declaration will remedy each class
member’s injury. Indeed, even an injunction obtained
by a single plaintiff in individual litigation would
benefit a properly defined (b)(2) class. For example,
an injunction eliminating an improper criterion in a
college’s admission process would benefit a class of
would-be applicants whether it was procured by one
litigant or by a properly defined class. “[A]llowing
individual members of the class to pursue relief on
their own” thus would be “pointless”; if the action
succeeds, then all members’ injuries will be remedied
in full regardless of whether some potential class
members would prefer to opt out. 1 Joseph M.
McLaughlin, McLaughlin on Class Actions §5:21 (16th
ed. 2019).
But, by the same token, if the class seeks relief
that may not benefit some members—or, worse still,
may benefit some members at the expense of others—
then the answer is not to let those members opt out.
It is to refuse to certify the class under Rule 23(b)(2)
at all for failure to pursue indivisible relief on behalf
of a cohesive class. After all, certifying loosely
connected classes (like this one) not only harms
defendants, but risks binding absent class members to

31
dispositions that are substantially divorced from the
merits of their individual claims.
2. The decision below expressly breaks with that
consensus, explicitly and unequivocally “reject[ing]”
the view that “‘cohesiveness’ is required under Rule
23(b)(2)” and declaring that whether “common
issues … predominate” is a question that matters only
for a (b)(3) class. App.34-35. The Ninth Circuit’s
rejection of a cohesion requirement not only put it in a
minority of one with respect to this circuit split, but
was outcome determinative, for the court vacated the
district court’s decision denying (b)(2) certification on
lack-of-cohesiveness grounds. App.34-35. In doing so,
the court not only created a textbook circuit split, but
reached a result that cannot be reconciled with this
Court’s precedent.
In every other circuit that has considered the
issue, the (b)(2) class proposed here would have
flunked the cohesiveness test because it suffers a basic
flaw: There is no way to determine all at once whether
every class member is entitled to relief. Again, this is
not a case in which the plaintiffs are alleging that the
defendant had a discrete policy of not providing pay
for time spent on a discrete activity (say, donning and
doffing their uniforms). Plaintiffs seek a remedy for
all “compensable” activities. But what is compensable
for a pitcher on a Double-A affiliate of Club A may not
be compensable for a pitcher on a Triple-A affiliate of
Club B—let alone for a center fielder or third baseman
in rookie ball. Indeed, because each minor leaguer
engaged in different spring-training activities to
different degrees at different times with different
frequencies and for different employers, the defining

32
characteristic of the proposed (b)(2) class is the
pervasiveness of “‘disparate factual circumstances of
class members.’” Gates, 655 F.3d at 264 (quoting
Carter v. Butz, 479 F.2d 1084, 1089 (3d Cir. 1973)).
Certification under Rule 23(b)(2) thus should have
been a nonstarter.
The Eighth Circuit’s decision in Ebert v. General
Mills is instructive. There, the district court certified
a (b)(2) class of homeowners seeking to litigate
whether General Mills was liable for environmental
contamination to their properties that allegedly
resulted from its disposal of hazardous materials. 823
F.3d at 475. The Eighth Circuit decertified the class
for lack of cohesiveness. As the court explained, for
each class member’s property, distinct questions
would need to be answered about the extent of any
contamination, whether General Mills was the cause,
what mitigation had already occurred, and so on. Id.
at 479. Accordingly, while a general “determination
regarding General Mills’ liability, in the broad sense,
could impact the entire class,” “resolution of that
single question [would] not apply uniformly to the
entire class,” for it would not resolve the “highly
individualized” issues of whether General Mills was
actually liable to each class member and, if so, what
relief was appropriate. Id. at 481 (emphases altered).
So too here. Even a general determination that
defendants are legally obligated to compensate
plaintiffs for all hours worked would not necessarily
establish that defendants are liable to any class
members, let alone all of them, or what (if any)
changes to their compensation that would require on
a going-forward basis. Instead, liability and the

33
appropriate remedy would still depend on highly
individualized assessment of which activities each
player performed were compensable and were
compensated in light of his particular circumstances.
In every other circuit that has addressed the issue,
that lack of cohesiveness would have doomed
plaintiffs’ (b)(2) class. Yet in the Ninth Circuit, it is
legally irrelevant. This Court should grant certiorari
to resolve the circuit split and the conflict with WalMart that the decision below creates.
III. The Questions Presented Are Exceptionally
Important.
The decision below not only defies this Court’s
caselaw, but conflicts with other circuits on important
questions concerning both (b)(3) and (b)(2) class
actions.
Equally important, the Ninth Circuit’s
treatment of wage-and-hour class actions threatens to
metastasize that already burgeoning litigation and
concentrate it in the Ninth Circuit. The FLSA creates
special rules that allow for nationwide collective
actions to be brought in any circuit. Given the decision
below, especially in light of the Third Circuit’s
contrary approach in Ferreras, there will be little
motivation for class-action lawyers to bring FLSA
actions elsewhere. Making matters worse, the panel’s
questionable approach to choice-of-law principles will
make it easy for state-law wage-and-hour claims to be
brought in the Ninth Circuit, as this case well
illustrates.
Although Rule 23 was intended to “impose[]
stringent requirements for certification that in
practice exclude most claims,” Am. Express Co. v.
Italian Color Rest., 570 U.S. 228, 234 (2013), class

34
certification continues to be the rule rather than the
exception, especially in wage-and-hour cases. One
study reports that “90% of all federal and state court
employment law class actions filed in the United
States are wage and hour class or collective actions.”
Laurent Badoux, ADP, Trends in Wage and Hour
Litigation Over Unpaid Work Time and the
Precautions Employers Should Take 1 (2012),
https://bit.ly/2YMTDpK. Given the sheer number of
these sprawling class actions and their potential for
massive judgments, see supra n.2, it is imperative that
the Court make clear that there is no wage-and-hour
exception to Wal-Mart.
That concern is magnified by the reality that the
FLSA allows nationwide collective actions. See 29
U.S.C. §216(b). Accordingly, so long as an employer
operates anywhere in the Ninth Circuit, a putative
nationwide class will be able to sue in the Ninth
Circuit and invoke its lax rules to make it easier to
secure certification. The panel’s indefensible choiceof-law analysis further exacerbates that temptation,
as it makes it easier to bring not just FLSA actions,
but state-law actions, in the Ninth Circuit.
Notwithstanding the fact that plaintiffs “reside in at
least 19 states” and “are suing employers who are
headquartered in at least 22 states, relating to work
that took place in three different states” with
materially different laws, the majority “appl[ied] a
simple rule of its devise” to evade choice-of-law
concerns: “just apply the law of the jurisdiction where
the work took place.” App.64 (Ikuta, J., dissenting).
That rule is patently inconsistent with the California
cases the court invoked. App.70-75. But so long as it
remains Ninth Circuit law, it too will facilitate

35
rampant forum shopping—particularly since the
panel made clear that its broad construction of Tyson
applies to FLSA and state-law wage-and-hour cases
alike.
There is no better illustration of that than this
case. After all, if a class composed of baseball players
who played different positions under different
compensation terms for up to 200 different affiliates
across 30 Clubs spanning 44 states can nonetheless be
deemed sufficiently similarly situated to satisfy the
requirements of Rule 23, then so could a class of every
Wal-Mart employee or every American Airlines
employee. That result cannot be reconciled with WalMart, Ferreras, Rule 23, or the Rules Enabling Act.
The Court should grant certiorari and once again
bring the Ninth Circuit’s outlier class-action doctrine
back in line with what this Court’s precedent
commands.

36
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
ELISE M. BLOOM
ADAM M. LUPION
MARK D. HARRIS
PROSKAUER ROSE LLP
Eleven Times Square
New York, NY 10036
(212) 969-3000

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MATTHEW D. ROWEN
JOSEPH C. SCHROEDER
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

June 1, 2020

